                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION
Office of Inspector General—Office of Audit




                                              LONGSHORE AND HARBOR WORKERS’
                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2005 and 2004




                                               This report was prepared by M.D. Oppenheim & Company, P.C., under
                                               contract to the U.S. Department of Labor, Office of Inspector General, and
                                               by acceptance, it becomes a report of the Office of Inspector General.




                                                                                   Assistant Inspector General for Audit




                                                                           Date Issued: September 21, 2006
                                                                           Report Number: 22-06-008-04-432
                                          LHWCA Financial Statements and Independent Auditors’ Report


Table of Contents

Independent Auditors’ Report.................................................................................... 3


Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements .................................................................................................. 7


    •    Management’s Discussion and Analysis....................................................... 10


    •    Balance Sheets ................................................................................................ 15


    •    Statements of Net Cost .................................................................................. 16


    •    Statements of Changes in Net Position......................................................... 17


    •    Statements of Budgetary Resources............................................................ 18


    •    Statements of Financing ................................................................................. 19


    •    Notes to the Financial Statements ................................................................ 20




Prepared by M.D. Oppenheim & Company, P.C., for the                                                                      1
U.S. Department of Labor—Office of Inspector General
Report No: 22-06-008-04-432
LHWCA Financial Statements and Independent Auditors’ Report




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                                Report No: 22-06-008-04-432
                                LHWCA Financial Statements and Independent Auditors’ Report




                               Independent Auditors’ Report


   Ms. Victoria Lipnic, Assistant Secretary
   Employment Standards Administration
   U.S. Department of Labor

   The Chief Financial Officers Act of 1990 (CFO Act) requires agencies to report
   annually to Congress on their financial status and any other information needed to
   fairly present the agencies’ financial position and results of operations. The
   Longshore and Harbor Workers’ Compensation Act Special Fund (the Fund) is
   included in the U.S. Department of Labor (DOL) annual financial statements issued
   to meet the CFO Act reporting requirements. In addition, the Longshore and Harbor
   Workers’ Compensation Act requires that an annual report be made to Congress on
   the financial status of the Fund.

   The objectives of our audits are to express an opinion on the fair presentation of the
   Fund’s financial statements, obtain an understanding of the Fund’s internal control,
   and test compliance with laws and regulations that could have a direct and material
   effect on the financial statements.

   We have audited the balance sheets of the Fund as of September 30, 2005 and
   2004 and the related statements of net cost, changes in net position, budgetary
   resources, and financing for the years then ended. These financial statements are
   the responsibility of the Fund’s management. Our responsibility is to express an
   opinion on these financial statements based on our audits.

   We conducted our audits in accordance with auditing standards generally accepted
   in the United States of America; the standards applicable to financial audits
   contained in Government Auditing Standards, issued by the Comptroller General of
   the United States; and Office of Management and Budget (OMB) Bulletin No. 01-02,
   Audit Requirements for Federal Financial Statements. Those standards require that
   we plan and perform the audit to obtain reasonable assurance about whether the
   financial statements are free of material misstatements.




Prepared by M.D. Oppenheim & Company, P.C., for the                                         3
U.S. Department of Labor—Office of Inspector General
Report No: 22-06-008-04-432
LHWCA Financial Statements and Independent Auditors’ Report

An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe that our audits provide a
reasonable basis for our opinion.

Opinion on Financial Statements
In our opinion the financial statements referred to above present fairly, in all material
respects, the assets, liabilities, and net position of the Fund as of September 30, 2005
and 2004; and the net cost, changes in net position, budgetary resources, and
reconciliation of net cost to budgetary resources for the years then ended in conformity
with accounting principles generally accepted in the United States of America.

Other Accompanying Information
Our audits were conducted for the purpose of forming an opinion on the Fund’s financial
statements taken as a whole. The information included in the Management Discussion
and Analysis section of the Fund’s annual financial statements is not a required part of
the principal financial statements. The information is required by the Federal
Accounting Standards Advisory Board and OMB Bulletin 01-09. We have applied
certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of the information. However,
we did not audit the information and express no opinion on it.

Report on Internal Control
In planning and performing our audits, we considered the Fund’s internal control over
financial reporting by obtaining an understanding of the Fund’s internal control,
determined whether these internal controls had been placed in operation, assessed
control risk, and performed tests of controls in order to determine our auditing
procedures for the purpose of expressing our opinion on the financial statements. We
limited our internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin No. 01-02. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act
of 1982, such as those controls relevant to ensuring efficient operations. The objectives
of our audits were not to provide assurance on internal control. Consequently, we do
not provide an opinion on internal control.
Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be
reportable conditions. Under standards issued by the American Institute of Certified
Public Accountants, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control that, in our
judgment, could adversely affect the agency’s ability to record, process, summarize,
and report financial data consistent with the assertions by management in the financial


4                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                                Report No: 22-06-008-04-432
                                LHWCA Financial Statements and Independent Auditors’ Report

statements. Material weaknesses are reportable conditions in which the design or
operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements caused by error or fraud in amounts that
would be material in relation to the financial statements being audited may occur and
not be detected within a timely period by employees in the normal course of performing
their assigned functions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may, nevertheless, occur and not be
detected. We noted a certain matter, discussed in the following paragraphs, involving
the internal control and its operations that we consider to be a reportable condition.
However, we also believe the reportable condition is a material weakness.

With respect to internal control related to performance measures included in the
Management Discussion and Analysis, we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions as
required by OMB Bulletin No. 01-02. Our procedures were not designed to provide
assurance on internal control over reported performance measures, and accordingly,
we do not provide an opinion on such controls.

Material Weakness

Weaknesses Noted Over LHWCA Accounting
The Employment Standards Administration (ESA) Office of Management,
Administration, and Planning (OMAP) performs the accounting for the Longshore and
Harbor Workers’ Compensation Act Special Fund. These accounting procedures
include entering transactions in the DOLAR$ general ledger and reconciling accounts.
Many of these transactions are entered in DOLAR$ as monthly summary journal entries
from various subsidiary records. In FY 2005, we noted several instances when the
accounting for these activities was not performed timely, completely, or accurately.
OMB Circular A-127 requires agency financial systems to provide reliable and timely
information.

Additionally, ESA did not have a formal process to reconcile the LHWCA benefit
payment subsidiary system with amounts reported to Treasury and recorded in the
DOLAR$ general ledger. Although the OCFO performs Funds with Treasury
reconciliations, the reconciliations are based on amounts recorded in the general ledger
and do not include the detailed payment history databases included in the subsidiary
system. Without a complete and formal reconciliation process, management cannot
ensure that its payment subsidiary systems are in agreement with the actual payments
reported and reconciled to Treasury.

These accounting and reconciliation problems arose because there was a significant
employee turnover in OMAP, and ESA did not have sufficiently detailed or
comprehensive written procedures to enable new staff to perform the required activities
in an accurate and timely manner.

Prepared by M.D. Oppenheim & Company, P.C., for the                                         5
U.S. Department of Labor—Office of Inspector General
Report No: 22-06-008-04-432
LHWCA Financial Statements and Independent Auditors’ Report

We recommend that the Chief Financial Officer and the Assistant Secretary for
Employment Standards: ensure that OMAP develops adequate detailed written
procedures that address all significant aspects of its accounting and financial
management; the OMAP implements a human resource transition/succession plan
which includes a description of key positions and detailed written procedures for the
duties assigned to the position; and ensure that OMAP and OWCP develop and
implement reconciliation procedures for the benefit payment histories and the SF-224,
FMS 6653 and the DOLAR$ general ledger. Management generally concurs and has
begun taking steps to address these recommendations.

We also noted other matters involving the internal control and its operations that have
been reported to the management of DOL in a separate letter dated November 10,
2005.

Report on Compliance with Laws and Regulations

The management of the Fund is responsible for complying with laws and regulations
applicable to the Fund. As part of obtaining reasonable assurance about whether the
Fund’s financial statements are free of material misstatement, we performed tests of its
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts and certain other laws and regulations specified in OMB Bulletin No. 01-02.
We limited our tests of compliance to these provisions, and we did not test compliance
with all laws and regulations applicable to the Fund. Providing an opinion on
compliance with those provisions was not an objective of our audit and, accordingly, we
do not express such an opinion.

The results of our tests of compliance with laws and regulations, described in the
preceding paragraph, disclosed no instances of noncompliance that are required to be
reported under Government Auditing Standards or OMB Bulletin No. 01-02.

This report is intended solely for the information of the management of the Longshore
and Harbor Workers’ Compensation Act Special Fund and U.S. Department of Labor,
the Office of Management and Budget, and the Congress, and is not intended to be and
should not be used by anyone other than these specified parties.




July 10, 2006




6                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                                Report No: 22-06-008-04-432
                                LHWCA Financial Statements and Independent Auditors’ Report




                   U. S. DEPARTMENT OF LABOR
              EMPLOYMENT STANDARDS ADMINISTRATION




   LONGSHORE AND HARBOR WORKERS’
    COMPENSATION ACT SPECIAL FUND
        FINANCIAL STATEMENTS
      SEPTEMBER 30, 2005 AND 2004




              Office of Management, Administration and Planning
                       Division of Financial Management




M.D. Oppenheim & Company, P.C., for the                                                  7
U.S. Department of Labor—Office of Inspector General
Report No: 22-06-008-04-432
LHWCA Financial Statements and Independent Auditors’ Report




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




8                                                   M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                                Report No: 22-06-008-04-432
                                           LHWCA Financial Statements and Independent Auditors’ Report

LONGSHORE AND HARBOR WORKERS'
                      COMPENSATION ACT SPECIAL FUND

                                              TABLE OF CONTENTS




                                                                                                PAGE

ACRONYMS                                                                                                  ii

MANAGEMENT’S DISCUSSION AND ANALYSIS

 Mission and Organizational Structure                                                             I   -1
 Financial Highlights                                                                             I   -1
 Performance Goals and Results                                                                    I   -2
 Internal Controls and Systems                                                                    I   -2
 Known Risks and Uncertainties                                                                    I   -3
 Limitations of the Financial Statements                                                          I   -3

FINANCIAL STATEMENTS

 Balance Sheets                                                                                  II   -   1
 Statements of Net Cost                                                                          II   -   2
 Statements of Changes in Net Position                                                           II   -   3
 Statements of Budgetary Resources                                                               II   -   4
 Statements of Financing                                                                         II   -   5

NOTES TO THE FINANCIAL STATEMENTS

 Note 1 - Summary of Significant Accounting Policies                                            III   -   1
 Note 2 – Funds with U.S. Treasury                                                              III   -   3
 Note 3 - Investments                                                                           III   -   4
 Note 4 - Accounts Receivable, Net                                                              III   -   4
 Note 5 - Other Liabilities                                                                     III   -   5
 Note 6 - Related Party Transactions                                                            III   -   6
 Note 7 –Statement of Budgetary Resources                                                       III   -   6
 Note 8 – Contingencies and Commitments                                                         III   -   7




                                                        i



M.D. Oppenheim & Company, P.C., for the                                                                   9
U.S. Department of Labor—Office of Inspector General
Report No: 22-06-008-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                LONGSHORE AND HARBOR WORKERS'
                                 COMPENSATION ACT SPECIAL FUND

                                                ACRONYMS




AUP            Agreed Upon Procedures

DCCA           District of Columbia Workmen’s Compensation Act Special Fund

DLHWCDivision of Longshore and Harbor Workers’ Compensation

DOL            Department of Labor

ESA            Employment Standards Administration

FASAB          Federal Accounting Standards Advisory Board

FMFIA          Federal Managers' Financial Integrity Act

FY             Fiscal Year

JFMIP          Joint Financial Management Improvement Project

LCMS           Longshore Case Management System

LHWCPA         Longshore and Harbor Workers’ Compensation Act

OMB            Office of Management and Budget

OWCP           Office of Workers' Compensation Programs

U.S.C.         United States Code




                                                       ii



10                                                           M.D. Oppenheim & Company, P.C., for the
                                                 U.S. Department of Labor—Office of Inspector General
                                                                         Report No: 22-06-008-04-432
                                LHWCA Financial Statements and Independent Auditors’ Report




                         U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION


                          Longshore and Harbor Workers’
                          Compensation Act Special Fund




                                   SECTION I

              MANAGEMENT’S DISCUSSION
                              AND ANALYSIS




                                    Fiscal Year 2005
                                  Financial Statements



M.D. Oppenheim & Company, P.C., for the                                                 11
U.S. Department of Labor—Office of Inspector General
Report No: 22-06-008-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                    LONGSHORE AND HARBOR WORKERS’
                                     COMPENSATION ACT SPECIAL FUND

                                MANAGEMENT’S DISCUSSION AND ANALYSIS
                                        SEPTEMBER 30, 2005


MISSION AND ORGANIZATIONAL STRUCTURE

The Longshore and Harbor Workers’ Compensation Act (LHWCA) provides medical benefits, compensation for lost-
wages and rehabilitation services for job-related injuries, diseases or death of private-sector workers in certain maritime
and related employment. Generally, benefits are paid directly from private funds by an authorized self-insured employer
or through an authorized insurance carrier. Cases meeting the requirements of the Longshore and Harbor Workers’
Compensation statute are paid from the Fund comprised primarily of employer contributions (assessments) and
administered by the DLHWC. In FY 2005, 5,740 workers (customers) received compensation benefits from the Fund.

The reporting entity is the Longshore and Harbor Workers' Compensation Act Special Fund (Fund). Organizationally
the Fund is administered by the Employment Standards Administration (ESA), an agency within the United States
Department of Labor. Within ESA, the Division of Longshore and Harbor Workers' Compensation (DLHWC) has
direct responsibility for administration of the Fund. The Fund supports the program mission by providing compensation,
and in certain cases, medical care payments to employees disabled from injuries which occurred on the navigable waters
of the United States, or in adjoining areas used for loading, unloading, repairing, or building a vessel. The Fund also
extends benefits to dependents if any injury resulted in the employee's death.

Additionally, the Longshore and Harbor Workers' Compensation Act Section 10(h) provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases is
paid by Federal appropriated funds, and fifty percent is paid by the Fund through the annual assessment. Appropriated
funding for 10(h) is not reflected in the accompanying financial statements.

Administrative services for operating the Fund are provided by the ESA through direct Federal Appropriations.
Appropriated funding for administrative services is not reflected in the accompanying statements.

FINANCIAL HIGHLIGHTS

The majority of the revenue of the Fund is generated through annual recurring assessments paid by self-insured
employers and insurance carriers and totaled $133,565,310 in FY 2005. This compares with assessment revenue of
$135,813,028 for FY 2004. During FY 2005 and 2004, substantial recoveries were made for the Fund due to activities
involving the application of Agreed Upon Procedures (AUP) on Forms LS-513, Report of Payments (used in the
calculation of the annual assessment), and negotiation/collection of past due assessments. Equally important, the AUP
activities have uncovered common reporting errors and other record-keeping mistakes which, when discovered, have
been eliminated. The on-going AUP program recovered $3,240,708 in FY 2005 and $458,970 in FY 2004 for the Fund.
These recoveries have and will continue to reduce carrier assessments.

Investment income for the Fund was $1,006,654 for FY 2005 compared to $420,648 for FY 2004. The average interest
rate earned during FY 2005 was 2.48 percent compared to 1.12 percent for FY 2004. The Fund’s costs remained
relatively stable compared to FY 2004; $130,882,929 for FY 2005 compared to $134,480,081 for FY 2004.

The sources of payments into the Funds include: fines and penalties levied under the Act; payments by employers of
$5,000 for each death case where there is no survivor entitled to the benefits; interest payments on Fund investments;
and, by far the largest source, payment of annual assessments by self-insured employers and insurance carriers.

                                                           I-1



12                                                                M.D. Oppenheim & Company, P.C., for the
                                                      U.S. Department of Labor—Office of Inspector General
                                                                              Report No: 22-06-008-04-432
                                            LHWCA Financial Statements and Independent Auditors’ Report

                                      LONGSHORE AND HARBOR WORKERS’
                                       COMPENSATION ACT SPECIAL FUND

                                 MANAGEMENT’S DISCUSSION AND ANALYSIS
                                         SEPTEMBER 30, 2005

FINANCIAL HIGHLIGHTS – Continued
Proceeds of the Special Funds are used for payments under: section 8(f) for second injury claims; section 10(h) for
initial and subsequent annual adjustments in compensation for permanent total disability or related death from injuries
which occurred prior to the effective date of the 1972 LHWCA amendments; sections 39(c) and 8(g) for the procurement
of medical and vocational rehabilitation services for permanently disabled employees and to provide a maintenance
allowance to workers undergoing rehabilitation; section 18(b) for compensation to injured workers in cases of employer
default; and section 7(e) for the cost of certain medical examinations.

PERFORMANCE GOALS AND RESULTS
The DLHWC supports the Department of Labor’s Strategic Goal 2 - A Secure Workforce. This goal broadly
promotes the economic security of workers and families. In particular, the DLHWC program supports Outcome
Goal 2.2 – To Protect Worker Benefits. The Department of Labor plays a large role in ensuring that worker benefits
are protected and that employers administer benefit programs in an appropriate way. The Longshore program assists
in meeting this outcome goal by establishing the long term performance goal of reducing by 12% in six years over
the FY 2002 baseline the average time required to resolve disputed issues in Longshore and Harbor Workers’
Compensation Program contests cases. The objective of this indicator is to quickly resolve disputes, enabling earlier
benefit delivery and reducing litigation costs. Because the Program exceeded it sixth year goal in FY 2004, the
performance target was increased to make it substantially more ambitious. The FY 2005 goal was:
         Reduce by fourteen percent over the FY 2002 baseline the average time required to resolve disputed issues in
         Longshore and Harbor Worker’s Compensation Program contested cases.
This target was not achieved, with the program result of 254 days as the average number of days to resolve disputed
issues, a 3.7% deviation from the target of 245 days. Had the performance target remained unchanged for FY 2005, the
result would have been seventeen days below the target of 268 days.

Longshore management has focused on improving mediation skills and timeliness of district office intervention when
disputes arose, with added emphasis on the accuracy of dispute tracking data. In FY 2006, these efforts will continue.
The performance baseline has been revised to incorporate more challenging disputes, with a new long term goal of
improving by 3% over three years from the FY 2005 baseline of 253 days the average time required to resolve claim
disputes. The FY 2006 target will be 250 days.

INTERNAL CONTROLS AND SYSTEMS
The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial Management and Insurance is a very
small unit comprised of six employees and one supervisor, all working in very close proximity to each other. Unethical
behavior is guarded against by carefully segregated duties, carefully assigned roles which are password protected, and by
close supervision. Much of the oversight, evaluation, monitoring, and control and almost all of the supervisory activity is
informal, done on a face-to-face basis. Similarly, each of the district offices is in itself a small unit, operating in the same
fashion as the Branch of Financial Management and Insurance.
Management communicates all procedural, policy, and operating goals to staff by means of weekly staff meetings, a
written procedure manual, frequent e-mail communication, and frequent individual communications regarding changes,
problems and issues.
                                                       I-2



M.D. Oppenheim & Company, P.C., for the                                                                                     13
U.S. Department of Labor—Office of Inspector General
Report No: 22-06-008-04-432
LHWCA Financial Statements and Independent Auditors’ Report


                                     LONGSHORE AND HARBOR WORKERS’
                                      COMPENSATION ACT SPECIAL FUND

                                 MANAGEMENT’S DISCUSSION AND ANALYSIS
                                         SEPTEMBER 30, 2005

INTERNAL CONTROLS AND SYSTEMS – continued

Statutes provide the formal standards where these are applicable, such as privacy statutes, cash handling procedures and
conflict of interest regulations. All codes, statutes, and regulations governing the conduct of Federal employees apply to
all Longshore Division employees.

Cases paid by the Special Fund are paid as a result of a formal Compensation Order issued by a District Director or
Administrative Law Judge, setting forth precisely what payment is due and to whom the payment is due. Each new case
coming in for Special Fund payment is prepared and reviewed by a total of five different employees before payment is
made, thus insuring accuracy.

Monthly cash statements, monthly case management reports, quarterly review processes, biweekly payment summaries,
the SF-224 report and statement of differences all provide current, reliable, and accurate information.

KNOWN RISKS AND UNCERTANTIES

The Longshore Special Fund is the single largest payer of indemnity payments under the Longshore Act. It pays more
than double the next largest payer of benefits. Although there are nearly 600 authorized insurance carriers and self-
insured employers, benefit payments are concentrated among a relatively few. For example, the top 10 carriers/self-
insurers alone pay almost one-half of total industry payments excluding Special Fund payments.

The Special Fund is assessed one year at a time for current expenses. There are no reserve funds for future Special Fund
obligations. It is strictly pay as you go one year at a time, in keeping with the language of section 44 of the Longshore
Act.

Taken together, these two factors could indicate future problems if one or more of the largest payers become insolvent
and unable to pay their assessment obligations. Temporary collection issues could result, necessitating special,
unscheduled assessments or other actions to keep the Special Fund funded for current liabilities.

LIMITATIONS OF THE FINANCIAL STATEMENTS

The following limitations are part of the financial statements:

         -   The financial statements have been prepared to report the financial position and results of operations of the
             entity, pursuant to the requirements of the Chief Financial Officers Act of 1990, U.S.C. 3515 (b).

         -   While the statements have been prepared from the books and records of the Fund in accordance with the
             formats prescribed by OMB, the statements are different from the financial reports used to monitor and
             control budgetary resources which are prepared from the same books and records.

         -   The statements should be read with the realization that they are for a component of the U.S. Government, a
             sovereign entity, that liabilities cannot be liquidated without the enactment of an appropriation, and that the
             payment of all liabilities other than for contracts can be abrogated by the sovereign entity.

                                                            I–3



14                                                                 M.D. Oppenheim & Company, P.C., for the
                                                       U.S. Department of Labor—Office of Inspector General
                                                                               Report No: 22-06-008-04-432
                                LHWCA Financial Statements and Independent Auditors’ Report




                         U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION

                          Longshore and Harbor Workers’
                          Compensation Act Special Fund




                                  SECTION II

                  FINANCIAL STATEMENTS




                              Fiscal Year 2005 and 2004
                                 Financial Statements




M.D. Oppenheim & Company, P.C., for the                                                 15
U.S. Department of Labor—Office of Inspector General
Report No: 22-06-008-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                 LONGSHORE AND HARBOR WORKERS'
                                  COMPENSATION ACT SPECIAL FUND

                                             BALANCE SHEETS
                                      As of September 30, 2005 and 2004



                                                                               2005             2004
 ASSETS

 Intra-governmental assets
   Funds with U.S. Treasury (Note 2)                                      $   13,309,829   $      465,067
   Investments (Note 3)                                                       60,000,000       69,653,321
      Total intra-governmental assets                                         73,309,829       70,118,388

 Accounts receivable, net of allowance (Note 4)                                1,221,523        1,316,673

 Total assets                                                             $   74,531,352   $   71,435,061



 LIABILITIES AND NET POSITION

 Liabilities
   Accounts Payable                                                       $      476,567   $            0
   Accrued benefits payable                                                    3,234,327        3,155,032
   Deferred revenue                                                           36,583,028       34,164,308
   Other liabilities (Note 5)                                                  8,429,029        9,973,788

 Total liabilities                                                            48,722,951       47,293,128

 Net position
  Cumulative results of operations                                            25,808,401       24,141,933

 Total liabilities and net position                                       $   74,531,352   $   71,435,061




16                                                            M.D. Oppenheim & Company, P.C., for the
                                                  U.S. Department of Labor—Office of Inspector General
                                                                          Report No: 22-06-008-04-432
                                      LHWCA Financial Statements and Independent Auditors’ Report

                                 LONGSHORE AND HARBOR WORKERS’
                                  COMPENSATION ACT SPECIAL FUND

                                       STATEMENTS OF NET COST
                              For the Years Ended September 30, 2005 and 2004



                                                                                2005            2004

SPECIAL FUND NET COST OF OPERATIONS

With the public
 Second injury compensation, Section 8(f)                               $   120,095,708   $   123,436,824
 Wage increase compensation, Section 10(h)                                    1,976,776         2,091,456
 Compensation payment for self-insurer in default, Section 18(b)              4,760,655         4,716,042
 Rehabilitation services, Section 39 (c)                                      2,602,208         2,968,490
 Rehabilitation maintenance, Section 8(g)                                           985               175
 Medical services, Section 7(e)                                                     185             8,939
 Bankrupt self-insured employers                                              1,446,412         1,258,155

Net cost of operations                                                  $   130,882,929   $   134,480,081




M.D. Oppenheim & Company, P.C., for the                                                                17
U.S. Department of Labor—Office of Inspector General
Report No: 22-06-008-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                 LONGSHORE AND HARBOR WORKERS’
                                  COMPENSATION ACT SPECIAL FUND

                              STATEMENTS OF CHANGES IN NET POSITION
                              For the Years Ended September 30, 2005 and 2004


                                                                        2005                2004

CUMULATIVE RESULTS OF OPERATIONS

Cumulative results of operations, beginning                       $    24,141,933     $    24,409,338

Budgetary financing sources:
 Transfers in/out without reimbursement (Note 6)                        (2,022,567)         (2,021,000)
 Non-exchange revenues:
   Interest                                                             1,006,654             420,648
   Assessments                                                        133,565,310         135,813,028
 Total non-exchange revenues                                          134,571,964         136,233,676

Total financing sources                                               132,549,397         134,212,676

     Net cost of operations                                           (130,882,929)       (134,480,081)

Net position, end of period                                       $    25,808,401     $    24,141,933




18                                                           M.D. Oppenheim & Company, P.C., for the
                                                 U.S. Department of Labor—Office of Inspector General
                                                                         Report No: 22-06-008-04-432
                                       LHWCA Financial Statements and Independent Auditors’ Report

                               LONGSHORE AND HARBOR WORKERS’
                                COMPENSATION ACT SPECIAL FUND

                             STATEMENTS OF BUDGETARY RESOURCES
                            For the Years Ended September 30, 2005 and 2004



                                                                          2005                2004

 BUDGETARY RESOURCES

   Budgetary authority:
     Appropriations received                                        $ 135,647,836      $ 141,041,377
   Unobligated balance:
     Beginning of period                                                 66,856,569         62,173,892
   Temporary not available pursuant to Public Law                            (1,122)           (14,995)

   Total budgetary resources                                        $ 202,503,283      $ 203,200,274



 STATUS OF BUDGETARY RESOURCES

   Obligations incurred (Note 7)
     Direct                                                         $ 132,905,496      $ 136,343,705
   Unobligated balances available
     Apportioned
     Other available - exempt from apportionment                       69,597,787         66,856,569
   Total status of budgetary resources                              $ 202,503,283      $ 203,200,274



 RELATIONSHIP OF OBLIGATIONS TO OUTLAYS

   Obligated balance, net, beginning                                $     3,155,032    $     2,185,301
   Obligated balance, net, ending
    Accounts payable                                                      3,710,894          3,155,032
   Outlays:
    Disbursements                                                       132,349,634        135,360,785

   Net outlays                                                      $ 132,349,634      $ 135,360,785




M.D. Oppenheim & Company, P.C., for the                                                               19
U.S. Department of Labor—Office of Inspector General
Report No: 22-06-008-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                  LONGSHORE AND HARBOR WORKERS’
                                   COMPENSATION ACT SPECIAL FUND

                                       STATEMENTS OF FINANCING
                              For the Years Ended September 30, 2005 and 2004


                                                                                2005            2004

RESOURCES USED TO FINANCE ACTIVITIES

Budgetary Resources Obligated
  Obligations incurred                                                 $ 132,905,496       $ 136,343,705
Other Resources
  Transfers, net                                                           (2,022,567)        (2,021,000)
Total resources used to finance activities                                130,882,929        134,322,705

COMPONENTS OF THE NET COST OF OPERATIONS
 THAT WILL NOT REQUIRE OR GENERATE
 RESOURCES IN THE CURRENT PERIOD

Components Not Requiring or Generating Resources
  Revaluation of assets and liabilities                                                0         366,628
  Benefit overpayments                                                                 0        (209,252)
Total components of net cost of operations that will not
  require or generate resources in the current period                                  0         157,376

Net cost of operations                                                 $ 130,882,929       $ 134,480,081




20                                                             M.D. Oppenheim & Company, P.C., for the
                                                   U.S. Department of Labor—Office of Inspector General
                                                                           Report No: 22-06-008-04-432
                                LHWCA Financial Statements and Independent Auditors’ Report



                         U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION

                          Longshore and Harbor Workers’
                           Compensation Act Special Fund




                                 SECTION III

                             NOTES TO THE
                  FINANCIAL STATEMENTS




                              Fiscal Year 2005 and 2004
                                 Financial Statements



M.D. Oppenheim & Company, P.C., for the                                                 21
U.S. Department of Labor—Office of Inspector General
Report No: 22-06-008-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2005 and 2004


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

The principal accounting policies which have been followed by the Fund in preparing the accompanying financial
statements are set forth below.

A.       Reporting Entity

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing activities of the Longshore and Harbor Workers' Compensation Act Special Fund (Fund). The
Fund is administered by the Employment Standards Administration (ESA) which is an agency within the United States
Department of Labor. Within ESA, the Division of Longshore and Harbor Workers' Compensation has direct
responsibility for administration of the Fund. The Fund offers compensation, and in certain cases, medical care
payments to employees disabled from injuries which occurred on the navigable waters of the United States, or in
adjoining areas used for loading, unloading, repairing, or building a vessel. The Fund also extends benefits to
dependents if any injury resulted in the employee's death.

Additionally, the Longshore and Harbor Workers' Compensation Act [Section 10(h)] provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases is
paid by Federal appropriated funds and fifty percent is paid by the Fund through the annual assessment. Appropriated
funding for 10(h) is not reflected in the accompanying financial statements.

B.       Basis of Accounting and Presentation

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing activities of the Longshore and Harbor Workers’ Compensation Act Special Fund (Fund), in
accordance with accounting principles generally accepted in the United States of America and the form and content
requirements of OMB Circular A-136. These financial statements have been prepared from the books and records of
the Fund. These financial statements are not intended to present, and do not present, the full cost of the Longshore
and Harbor Workers’ Compensation Act Program (Longshore Program). In addition to the Fund costs presented in
these statements, the full cost of the Longshore Program would include certain direct costs of ESA in the form of
salaries and expenses for administration of the Longshore Program and allocated costs of ESA and other DOL
agencies incurred in support of the Longshore Program. The full cost of the Longshore Program is included in the
Consolidated Financial Statements of the U.S. Department of Labor.

Accounting principles generally accepted in the United States of America encompass both accrual and budgetary
transactions. Under accrual accounting, revenues are recognized when earned, and expenses are recognized when a
liability is incurred. Budgetary accounting facilitates compliance with legal constraints on, and controls over, the use of
federal funds. These financial statements are different from the financial reports, also prepared for the Fund pursuant to
OMB directives, used to monitor the Fund’s use of budgetary resources.



                                                          III - 1



22                                                                M.D. Oppenheim & Company, P.C., for the
                                                      U.S. Department of Labor—Office of Inspector General
                                                                              Report No: 22-06-008-04-432
                                          LHWCA Financial Statements and Independent Auditors’ Report

                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2005 and 2004


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

C.       Funds with U.S. Treasury

The Fund does not maintain cash in commercial bank accounts. Cash receipts and disbursements are processed by the
U.S. Treasury. The Funds with U.S. Treasury are trust funds that are available to pay current liabilities and finance
authorized purchase commitments.

D.       Investments

Investments in U.S. Government securities are reported at cost, net of unamortized premiums or discounts, which
approximates market value. Premiums or discounts are amortized on a straight-line basis, which approximates the
effective interest method. The Fund's intent is to hold investments to maturity, unless they are needed to finance claims
or otherwise sustain the operations of the Fund. No provision is made for unrealized gains or losses on these securities
because, in the majority of cases, they are held to maturity.

E.       Accounts Receivable, Net of Allowance

The amounts due as receivables are stated net of an allowance for uncollectible accounts. The allowance is estimated
based on past experience in the collection of the receivables and an analysis of the outstanding balances. Also included
as benefit overpayments receivable are Fund benefit overpayments made to individuals primarily from amended
compensation orders and corrections of payment computations.

F.       Accrued Benefits Payable

The Longshore and Harbor Workers’ Compensation Special Fund provides compensation and medical benefits for work
related injuries to workers in certain maritime employment. The Fund recognizes a liability for disability benefits
payable to the extent of unpaid benefits applicable to the current period.

G.       Deferred Revenue

Deferred revenues represent the unearned assessment revenues as of September 30, the Fund's accounting year end. The
annual assessments cover a calendar year and, accordingly, the portion extending beyond September 30 has been
deferred.

H.       Financing Sources Other Than Exchange Revenue

Non-exchange revenues arise from the Federal government’s power to demand payments from and receive
donations from the public. Non-exchange revenues are recognized by the Fund for assessments levied against the
public and interest income from investments.

The Fund’s primary source of revenue is annual assessments levied on insurance carriers and self-insured
employers. Assessments are recognized as non-exchange revenue when due. Included in revenues are recoveries of
amounts
                                                   III - 2



M.D. Oppenheim & Company, P.C., for the                                                                               23
U.S. Department of Labor—Office of Inspector General
Report No: 22-06-008-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                  For the Years Ended September 30, 2005 and 2004


H.       Financing Sources Other Than Exchange Revenue - Continued

reassessed to carriers related to prior years. These reassessments primarily result from application of Agreed Upon
Procedures (AUP) on reported carrier data. Recoveries amounted to $3,240,708 during fiscal year ended September
30, 2005 and $458,970 during fiscal year ended September 30, 2004.

The Fund also receives interest on Fund investments and on Federal funds in the possession of non-Federal entities.


NOTE 2 - FUNDS WITH U.S. TREASURY

Funds with the U.S. Treasury at September 30, 2005 and 2004 consisted of cash deposits of $13,309,829 and $465,067
respectively. These cash deposits at September 30, 2005 and 2004 included $143,307 and $14,464 respectively which
are being held as security by authority of Section 32 of the Longshore and Harbor Workers' Compensation Act. These
funds relate to the default of self-insured employers, are available for payment of compensation and medical benefits to
covered employees of the defaulted companies.

Funds with U.S. Treasury at September 30, 2005 consisted of the following:

                                               Entity Assets
                    Unobligated     Unobligated       Obligated
                      Balance         Balance        Balance Not           Total        Non-entity
                     Available      Unavailable     Yet Disbursed      Entity Assets      Assets              Total

Special Fund    $             0     $          0     $ 13,309,829       $ 13,309,829       $         0    $ 13,309,829


Funds with U.S. Treasury at September 30, 2004 consisted of the following:

                                               Entity Assets
                    Unobligated     Unobligated       Obligated
                      Balance         Balance        Balance Not           Total        Non-entity
                     Available      Unavailable     Yet Disbursed      Entity Assets      Assets              Total

Special Fund    $             0     $          0     $     465,067      $    465,067       $         0    $     465,067




                                                         III – 3



24                                                               M.D. Oppenheim & Company, P.C., for the
                                                     U.S. Department of Labor—Office of Inspector General
                                                                             Report No: 22-06-008-04-432
                                          LHWCA Financial Statements and Independent Auditors’ Report

                                     LONGSHORE AND HARBOR WORKERS'
                                      COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2005 and 2004


NOTE 3 - INVESTMENTS

Investments at September 30, 2005 and 2004 consisted of the following:

                                                             September 30, 2005

                                       Face                                           Net        Market
                                       Value             Discount                     Value      Value

Intragovernmental securities
  Marketable                          $ 60,000,000       $          0          $ 60,000,000   $ 60,000,000


                                                             September 30, 2004
                                         Face                                      Net           Market
                                        Value            Discount                 Value          Value
Intragovernmental securities
  Marketable                          $ 69,863,000      $ (209,679)            $ 69,653,321   $ 69,653,321


Investments of $8,252,000 and $9,586,548 at September 30, 2005 and 2004, respectively are being held as security by
authority of Section 32 of the Longshore and Harbor Workers' Compensation Act. These investments are available for
payment of compensation and medical benefits to covered employees of the defaulted companies. Investments at
September 30, 2005 and 2004 consist of overnight securities and short-term U.S. Treasury Bills that are stated at
amortized cost which approximates market respectively. Investments at September 30, 2005 bear an interest rate of
3.46% compared to rates varying from 1.34% to 1.89% for 2004. Interest rates on securities bought and sold during
fiscal year 2005 ranged from 1.34% to 3.67% compared to 0.89% to 1.89% for fiscal year 2004.


NOTE 4 - ACCOUNTS RECEIVABLE, NET

Accounts receivable at September 30, 2005 and 2004 consisted of the following:

                                                                           2005                    2004
Entity assets
  Benefit overpayments                                                   $1,466,511            $ 1,466,511
  Assessments receivable                                                    193,903                289,053
  Less: allowance for doubtful accounts                                   (438,891)              (438,891)

    Total accounts receivable, net                                       $1,221,523            $ 1,316,673

Assessments receivable represent the unpaid annual assessments from the current and prior years. Accounts receivable
from overpayments to claimants arise primarily from amended compensation orders and corrections of payment
computations. These receivables are being primarily recovered by partial and total withholding of benefit payments.

                                                       III - 4



M.D. Oppenheim & Company, P.C., for the                                                                          25
U.S. Department of Labor—Office of Inspector General
Report No: 22-06-008-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                     LONGSHORE AND HARBOR WORKERS'
                                      COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                  For the Years Ended September 30, 2005 and 2004


NOTE 4 - ACCOUNTS RECEIVABLE, NET - Continued

Changes in the allowance for doubtful accounts during FY 2005 and FY 2004 consisted of the following:

                                                                      2005

                                       Allowance             Write            Revenue                   Allowance
                                          9-30-04             Offs          Adjustment      Bad Debt       9-30-05
Entity assets
  Benefit overpayments                $ (366,628)      $         0       $             0    $       0   $ (366,628)
  Assessment receivable                  (72,263)                0                     0            0      (72,263)
                                      $(438,891)       $         0       $             0    $       0   $ (438,891)


                                                                       2004
                                       Allowance             Write            Revenue                   Allowance
                                          9-30-03             Offs          Adjustment      Bad Debt       9-30-04
Entity assets
  Benefit overpayments                $ (381,135) $   381,135           $            - $ (366,628)      $ (366,628)
  Assessment receivable                (123,428)      (19,954)                  71,119           0         (72,263)
                                      $(504,563)    $ 361,181            $      71,119 $(366,628)       $ (438,891)


NOTE 5 - OTHER LIABILITIES

Other liabilities at September 30, 2005 and 2004 consisted of the following current liabilities:

                                                                                       2005                     2004
Other liabilities
  Assessment overpayments by carriers                                              $       33,722            $ 372,776
  Defaulted employer liability
    Held in investments                                                                8,252,000               9,586,548
    Held in cash                                                                         143,307                  14,464
                                                                                       8,395,307               9,601,012

  Total other liabilities                                                          $ 8,429,029               $ 9,973,788

Assessment overpayments are to be refunded upon request or applied to reduce future assessments.

Defaulted employer liability relates to funds and investments held by the Longshore Special Fund which are being held
as security by authority of Section 32 of the Act. These funds and investments are available for compensation and
medical benefits to covered employees of the defaulted companies. Management estimates that these funds and
investments held will not be sufficient to cover the future benefits associated with the covered employees.
                                                            III - 5



26                                                                 M.D. Oppenheim & Company, P.C., for the
                                                       U.S. Department of Labor—Office of Inspector General
                                                                               Report No: 22-06-008-04-432
                                          LHWCA Financial Statements and Independent Auditors’ Report

                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2005 and 2004




NOTE 6 - RELATED PARTY TRANSACTIONS

The Fund reimburses the Office of Workers' Compensation Programs (OWCP) (a related entity within the Employment
Standards Administration) for rehabilitation services provided to eligible claimants and certain direct expenses associated
with administrative support of the Fund. Amounts paid to the OWCP were $2,022,567 in 2005 and $2,021,000 in 2004.


NOTE 7 – STATEMENT OF BUDGETARY RESOURCES

A. Apportionment Categories of Obligations Incurred

                                                                        2005                        2004

Direct Obligations
 Exempt from apportionment                                          $   132,905,496           $     136,343,705

B Explanation of Differences Between the Statement of Budgetary Resources and the Budget of the United States
Government

The Budget of the United States Government with actual amounts for the year ended September 30, 2005, has not been
published as of the issue date of these financial statements. This document will be available in February 2006. In,
addition, the reconciliation of the Report of Budget Execution (SF133) and the Statement of Budgetary Resources will
be performed in FY 2006 after the Department receives the final SF133 reports from Trust Fund and allocated accounts.

A reconciliation of budgetary resources, obligations incurred and outlays, as presented in the Statement of Budgetary
Resources to amounts included in the Budget of the United States Government for the year ended September 30, 2004 is
shown below:

                                                                                     2004

                                                                Budgetary         Obligations
(Dollars in Millions)                                           Resources          Incurred              Outlays

Statement of Budgetary Resources                                $       203      $          136            $   135

   District of Columbia Workers’ Compensation                   $        16      $          11             $    11

Budget of the United States Government                          $       219      $          147            $   146



                                                          III - 6



M.D. Oppenheim & Company, P.C., for the                                                                                27
U.S. Department of Labor—Office of Inspector General
Report No: 22-06-008-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2005 and 2004


NOTE 8 - CONTINGENCIES AND COMMITMENTS

The Division of Longshore and Harbor Workers’ Compensation within ESA may be an interested party in various
lawsuits related to benefits paid or payable. Per Statement of Federal Financial Accounting Standards (SFFAS) No.
5, as amended by SFFAS No. 12, a contingent liability should be disclosed if any of the three conditions for liability
recognition are not met and there is at least a reasonable possibility that a loss or an additional loss my have been
incurred.

A Longshore Harbor Workers’ Compensation Act benefits claim has been filed against a company and its insurer for
injuries a claimant sustained in the course of employment. A related civil case has been filed by the insurer seeking
a judgment declaring the Longshore insurance policy void and excusing the insurer from any liability to the
company or the claimant for the injuries sustained. The Government’s response in all forums is to obtain
determinations that the insurer is liable to pay the claimant’s compensation and eliminate the possibility that the
company will be deemed the only liable payer. This should protect the Fund from incurring a liability to pay the
claimant’s compensation pursuant to section 18(b). The chance of an unfavorable outcome is less than probable but
more than remote. The immediate loss would be approximately $1 million in already accrued compensation benefits
and medical expenses. Future expenses are expected to be higher.

Section 39(c)(2) of the Longshore and Harbor Workers' Compensation Act authorizes vocational rehabilitation of
disabled employees and Section 8(g) provides additional compensation to disabled employees while undergoing
rehabilitation training. Rehabilitation services paid from the Fund are mainly provided by private counselors and private
training facilities. The rehabilitation agreements are funded by future assessments from the insurance carriers and
self-insured employers. The amount of the outstanding rehabilitation agreements at September 30, 2005 is $4,925,955
compared to $4,507,966 for September 30, 2004.




                                                         III - 7




28                                                                M.D. Oppenheim & Company, P.C., for the
                                                      U.S. Department of Labor—Office of Inspector General
                                                                              Report No: 22-06-008-04-432
